MEMORANDUM

DATE:

TO:                   David A. Elizalde, Director
                      Division of Acquisition and Cooperative Support

FROM:                 Deborah H. Cureton
                      Associate Inspector General for Audit

SUBJECT:              NSF OIG Audit Report No. OIG-06-1-018, Audit of Incurred Costs at
                      VECO Rocky Mountain, Inc. for Fiscal Years 2001 to 2003

In response to your request for an audit of VECO Rocky Mountain Inc.’s (VRM) Fiscal Years
(FYs) 2001 to 2003 (April 1, 2000 to March 31, 2003) incurred cost proposal submission,
claimed under NSF Contract No. OPP-0001041, we contracted with the Defense Contract Audit
Agency (DCAA), Denver Branch Office, to perform these audits to: 1) determine allowability of
direct and indirect costs and 2) recommend contracting officer negotiated indirect cost rates. The
DCAA audits were performed in accordance with Generally Accepted Government Auditing
Standards. Attached are the final DCAA audit reports for the period FYs 2001 to 2003, which
include a review of the negotiated indirect cost rates and all costs, both indirect and direct,
claimed on the NSF contract.

                                          Background

VRM is a wholly owned subsidiary of VECO Corporation, a closely held corporation
incorporated in the state of Delaware in 1979. VRM is an Engineering, Procurement,
Construction, Operations and Maintenance and Management Services concern with total sales of
xxxxxxx and sales to NSF of xxxxxxxxxx during the review period. VRM has xxxx direct
employees and xxxx indirect employees to provide NSF with Arctic logistics research support
services.

                                      Summary of Results

The audits disclosed that VRM’s claimed direct and indirect costs totaling $21.9 million are
acceptable for payment, except for xxxxx for unallowable employee bonus payments and xxx
xxxxxxxxxxxxxxxx of the total cost claimed of inadequately supported direct labor costs.
Regarding the direct labor costs, the auditors qualified their audit opinion on the Schedule of
Contract Costs due to a scope limitation because they could not determine the accuracy of these
costs. The auditors found that the timesheets used to capture the daily hours worked by the
employees were not routinely signed by employees and supervisors to certify the accuracy of the
labor charges to the NSF contract. Therefore, the auditors were unable to verify the
completeness and accuracy of the labor costs charged to the NSF contract. However, the
auditors did not question these costs because all worked performed by the employees was
performed for the NSF contract. VRM reported that it implemented a written timekeeping policy
that became effective February 1, 2004. VRM states their timesheets are now fully compliant
with the Federal Acquisition Regulations (FAR).

The auditor also determined that VRM incorrectly claimed xxxxx of unallowable bonus costs
awarded to employees in FY 2003. The auditor found that VRM did not have an established
bonus plan or prior written agreements with the employees who received the bonuses, as
required by the FAR. An established bonus plan allows VRM to award bonuses to deserving
employees in a fair and equitable manner and protects NSF from claims for payment under the
NSF cost reimbursement contract by VRM that are excessive, frivolous, or arbitrary.

The auditors also reported that except for the qualification related to the claimed direct labor
costs, the indirect cost rates for FYs 2001 to 2003 are acceptable as proposed by VRM.

                                      Recommendations

We recommend that the NSF Director of the Division of Acquisition and Cooperative
Support:

   1. Ensure that VRM’s new timekeeping policy:

       a. requires employees to sign their timecard after all entries have been made but prior to
       receiving supervisory approval thereby providing the employee’s assurance that the time
       recorded on her/his time sheet is correct.

       b. requires employees to enter their time on a daily basis. A policy or procedure should
       be developed which requires both hourly and salaried employees to record their time at
       least daily. Completion of a timesheet on a daily basis will ensure that an employee’s
       time recorded on the timesheet is representative of what the employee actually worked
       and that any leave taken or holidays worked are recorded accurately and completely.

       c. requires employees to note changes/alterations to their timecards which change any
       time previously recorded. The employee should also provide a reason for the change
       being made. In addition, timecards should be completed in such a way as to be able to
       distinguish between original entries and corrections to previously recorded time.
       Tracking and approving changes provides assurance that the entries being changed or


                                               2
       corrected originate from the employee that actually charged the time and represent the
       time that the employee actually worked on the contract.
       d. requires management to review employee timecards for proper time charging prior to
       submission to accounting for payment. Additionally, management’s time cards must also
       be approved, preferably by another member of management. Management should
       evidence its review and approval by having the manager/supervisor sign the time sheet.
       Approval of the timecard indicates that management agrees that the employee charged
       her/his time correctly, all overtime or odd shifts are accounted for, and any leave or
       holiday time is also recorded appropriately.

   2. Ensure that VRM establish a written policy for bonuses or have written agreements with
      employees for bonuses that allows VRM to award bonuses to deserving employees in a
      fair and equitable manner and protects NSF from claims for payment under the NSF cost
      reimbursement contract by VRM that are excessive, frivolous, or arbitrary.

In its verbal response to the draft of the DCAA audit reports, VRM stated it had updated its
policies and procedures for timesheet recording effective February 1, 2004. VRM did not agree
that the bonus payments to employees should be questioned costs. The findings should not be
closed until NSF determines that all recommendations have been adequately addressed and
proposed corrective actions have been satisfactorily implemented.

We are providing a copy of this memorandum to Mr. Patrick Smith of the Office of Polar
Programs. The responsibility for audit resolution rests with DACS. Accordingly, we ask that no
action be taken concerning the reports’ findings without first consulting DACS at (703) 292-
8242.


OIG Oversight of Audit

To fulfill our responsibilities under Government Auditing Standards, the Office of Inspector
General:

   •   Reviewed DCAA’s approach and planning of the audit;

   •   Monitored the progress of the audit at key points;

   •   Coordinated periodic meetings with DCAA and OIG management to discuss audit
       progress, findings, and recommendations;

   •   Reviewed the audit reports, prepared by DCAA to ensure compliance with Government
       Auditing Standards and Office of Management and Budget Circulars; and

   •   Coordinated issuance of the audit reports.


                                                3
DCAA is responsible for the attached auditor’s reports on VRM and the conclusions expressed in
the reports. The NSF OIG does not express any opinion on the conclusions presented in
DCAA’s audit reports.

We thank you and your staff for the assistance that was extended to us during the audit. If you
have any questions about the attached reports, please contact Ken Stagner at (303) 312-7655 or
Jannifer Jenkins at (703) 292-4996.


Attachments – DCAA Audit Report on Veco Rocky Mountain, Inc. for Fiscal Year 2001
              Incurred Costs dated December 16, 2005
            - DCAA Audit Report on Veco Rocky Mountain, Inc. for Fiscal Year 2002
              Incurred Costs dated December 16, 2005
            - DCAA Audit Report on Veco Rocky Mountain, Inc. for Fiscal Year 2003
              Incurred Costs dated January 13, 2006


cc: Patrick Smith, OPP




                                              4
             DEFENSE CONTRACT AUDIT AGENCY

                      AUDIT REPORT NO. 3121–
                          2001B10100091

                                                               December 16, 2005

PREPARED FOR: National Science Foundation
              Office of Inspector General
              ATTN: Ken Stagner
              999 18th St., Suite 775
              Denver, CO 80202

PREPARED BY:     DCAA Denver Branch Office
                 7112 West Jefferson Ave., Suite 200
                 Lakewood, CO 80235-2327
                     Telephone No.     (303) 969-5000
                     FAX No.           (303) 969-5056
                     E-mail Address    dcaa-fao3121@dcaa.mil

SUBJECT:         VECO Rocky Mountain, Inc. Fiscal Year 2001 Incurred Costs

REFERENCES::     NSF #OPP-0001041
                 Relevant Dates: See Page 7

CONTRACTOR:      Veco Rocky Mountain, Inc
                 9000 E. Nichols Ave, Suite 250
                 Centennial, CO 80112-3474

REPORT RELEASE RESTRICTIONS: See Page 8

                                                                                   Page
CONTENTS:         Subject of Audit                                                  1
                  Scope of Audit                                                    1
                  Results of Audit                                                  2
                  Contractor Organization and Systems                               6
                  DCAA Personnel and Report Authorization                           7
                  Audit Report Distribution and Restrictions                        8
                  Appendix                                                          9




                        XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 3121-2001B10100091

                                      SUBJECT OF AUDIT

        We examined the VECO Rocky Mountain, Inc (VRM)’s incurred cost proposal and
related books and records for reimbursement of fiscal year (FY) 2001 incurred costs. The
purpose of the examination was to determine allowability of direct and indirect costs and
recommend contracting officer-determined indirect cost rates for FY 2001. The proposed rates
apply primarily to the flexibly-priced contract listed in Exhibit A, page 4. A copy of VRM's
Certificate of Final Indirect Costs, dated March 24, 2003, is included as an Appendix to the report
(see page 9).

       The proposal is the responsibility of the contractor. Our responsibility is to express an
opinion based on our examination.
                                       SCOPE OF AUDIT

       Except for the qualification discussed below, we conducted our examination in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the examination to obtain reasonable assurance about whether the data and
records examined are free of material misstatement. An examination includes:

       •    evaluating the contractor's internal controls, assessing control risk, and determining
            the extent of audit testing needed based on the control risk assessment;
       •    examining, on a test basis, evidence supporting the amounts and disclosures in the
            data and records evaluated;
       •    assessing the accounting principles used and significant estimates made by the
            contractor;
       •    evaluating the overall data and records presentation; and
       •    determining the need for technical specialist.

       We evaluated the proposal using the applicable requirements contained in the:

       •    Federal Acquisition Regulation (FAR); and
       •    Cost Accounting Standards.

        We have not specifically examined VRM’s Dynamics accounting system and related
internal controls for the FY 2001 costs being reviewed. Dynamics is not a job cost accounting
system; we increased testing as a result of this system deficiency.

       The contractor is a small business with limited resources to be applied to compliance
procedures and testing. The scope of our examination reflects this assessment of control risk and
includes tests of compliance with applicable laws and regulations that we believe provide a
reasonable basis for our opinion.




                               XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 3121-2001B10100091

QUALIFICATION

        Our report is qualified related to claimed direct labor costs of $xxxxxxxxx During our
audit, we verified the claimed labor hours through the labor distribution to individual employee
timesheets. However, we found that the employee timesheets were not signed by employees
certifying the hours recorded or approved by the employee's supervisors. Without the
employee's certification and supervisor’s approval of the recorded hours, we do not have
sufficient evidential matter that the hours recorded reflect the actual hours worked. We informed
VECO of this deficiency in its internal controls.

        VECO has corrected this condition with a written timekeeping policy effective February
1, 2004, which requires employees and supervisors to sign timesheets to certify the accuracy of
their labor hours. Nevertheless, for the audit years 2001 through 2003, this internal control did
not exist and we can not verify through other means the accuracy of the hours reported on the
timesheet. Therefore, our audit report is qualified related to the claimed labor costs. See Results
below.

                                     RESULTS OF AUDIT

       Direct Costs. In our opinion except for the qualification related to the claimed direct
labor costs of $ xxxxxxxxx, the contractor’s claimed direct costs are acceptable and are
provisionally approved, pending final acceptance. Final acceptance of amounts proposed under
Government contracts does not take place until performance under the contract is completed and
accepted by the cognizant authorities and the audit responsibilities have been completed.

       Indirect Rates. In our opinion except for the qualification related to the claimed direct
labor costs of $ xxxxxxxxx which are in the claimed bases, the contractor's indirect rates are
acceptable as proposed. The examination results are presented below:

                                                                      Proposed and Accepted
                                                     Allocatio   Indirect Expense
Indirect Category                                     n Base           Pool              Rate
xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx                    Xxx         xxxxxxxxxxx         xxx xxx
Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx                    Xxx          xxx xxx xxx        xxx xxx
Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx                    Xxx          xxx xxx xxx          xxx

             Xx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
             Xx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
             Xx    xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx




                                                 2

                                 FOR OFFICIAL USE ONLY
Audit Report No. 3121-2001B10100091



              GOVERNMENT PARTICIPATION IN ALLOCATION BASES

                                                        Government FFP
                            Government Flexibly-      Contracts/Subcontracts
                                   Priced                      and
                            Contracts/Subcontract
      Indirect Category               s                  Commercial Work           Total
     xxxxxxxxxxxxxxx                xxxxx                     Xxxxx               Xxxxx
     xxxxxxxxxxxxxxx                Xxxxx                     Xxxxx               Xxxxx
     xxxxxxxxxxxxxxx                Xxxxx                     Xxxxx               xxxxx


         Exhibit A, page 4, includes a Schedule of Direct Costs by Contract/Subcontract and
Indirect Expense Applied at Audited Rates. The indirect rates proposed and audited are subject
to final determination of the contracting officer.

       Cumulative Allowable Cost Worksheet (CACWS). The costs noted on the schedule of
cumulative allowable costs in Exhibit B, page 5, represent costs that are considered allowable
under the listed contracts and are, therefore, reimbursable.

       We discussed the results of our examination with xxxxxxxxxxxx, Secretary and
Treasurer in an exit conference held on December 13, 2005. xxxxxxxxxxxx withheld comment.




                                               3

                             XXXXXXXXXXXXXXXXXXXXX
        Audit Report No. 3121-2001B10100091

                                                                                                                                           EXHIBIT A



                                                           VECO ROCKY MOUNTAIN
                                            SCHEDULE OF DIRECT COSTS BY CONTRACT/SUBCONTRACT
                                               AND INDIRECT EXPENSE APPLIED AT AUDITED RATES
                                                            Fiscal Year Ended 3/31/2001

                    Direct Labor Direct Labor                   Other                     Total      OH @ Contract Labor OH   Direct Costs G&A @       Total
   Contract No.       Regular     Contract         Travel    Direct Costs Subcontracts Direct Costs xxxxxxxx   xxxxxxxx        Plus OH xxxxxxxx        Costs
NSF OPP-0001041      xxxxxxxx      xxxxxxxx      xxxxxxxx xxxxxxxx         xxxxxxxx       Xxxxxxxx      xxxxxxxx   xxxxxxxx   xxxxxxxx   xxxxxxxx $ xxxxxxxx




                    Proposed and audited indirect rates are subject to final determination of the contracting
              Note:officer.




                                                                                         4

                                                                       FOR OFFICIAL USE ONLY
       Audit Report No. 3121-2001B10100091



                                                                                                                                                        EXHIBIT B

                                                                   VECO ROCKY MOUNTAIN, INC.
                                                                  Cumulative Allowable Cost Worksheet
                                                                           Through 3/31/2001
                                                         For Cost and Flexibly Priced Contracts and Subcontracts

                                                                      Unsettled Claimed Direct and
                                                     Prior            Indirect Costs Using Claimed                       Less            Total          Assist
                                Subject To       Audited Years                    Rates                                 Contract       Allowable       Amounts        Ready
                                 Penalty          W/Settled              FYE              FYE                          Limitation         Cost        Included in       to
         Contract No.           Clause (1)         Rates (2)          3/31/2000        3/31/2001         Subtotal         (3)             (4)          Total (5)      Close

   Cost Type
   NSF OPP-0001041                  Yes                 0              xxxxxxxx       xxxxxxxxxx        xxxxxxxxx                     zzzzzzzzzzz          0            No


NOTES:
(1) FAR 42.709 implements 10 U.S.C. 2324 (a)-(d) and 41 U.S.C. 256 (a)-(d), which require that penalties be assessed if a contractor claims an expressly
    unallowable cost in an indirect cost settlement. The FAR 42.709 applies to all cost type and fixed-price-incentive contracts in excess of $500,000 issued on or
    after 1 October 1995. DFARS 231.70 applies to DoD cost-type and fixed -price-incentive-fee contracts in excess of $100,000 issued between 26 February 1987
    and 1 October 1995.
(2) These costs, by contract, are computed using the negotiation or rate agreement document.
(3) Contract limitation include costs incurred that are (i) in excess of contract ceiling rates, (ii) unallowable per contract, (iii) outside the period of performance,
    or (iv) in excess of contract ceiling amounts that are not already excluded.
(4) The cumulative allowable amounts in this column are not to exceed contract-ceiling amounts and are subject to the resolution of subcontract assist audits identified in
     Column 5.
(5) Costs in this column are considered unresolved pending subcontract completion and receipt of final cumulative allowable subcontract costs. See the attached supporting
     schedule for details of subcontracts included in this amount.




                                                                                       5

                                                                 XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 3121-2001B10100091

                   CONTRACTOR ORGANIZATION AND SYSTEMS

1. Organization:

   VECO Corporation, a closely held corporation, was incorporated in the state of Delaware in
   1979. VECO Rocky Mountain is wholly owned subsidiary of VECO Corporation. VRM is
   an Engineering, Procurement, Construction, Operations and Maintenance and Management
   Services concern with sales for fiscal year ended 2001 of xxxxxxxxxxx. The 2001 sales to
   the Government were xxxxxxxxxx. VRM has 134 direct employees and 20 indirect.
   VRM, teaming with Polar Field Services and SRI International, collectively known as VECO
   Polar Resources, have been working together since 1999 to provide Arctic logistics research
   support services.

2. Accounting System:

   We have not audited the Dynamics accounting system used by VRM during FY 2001.
   VRM's accounting period is from April 1 to March 31. VECO Corporation and Subsidiaries’
   financial statements are prepared on a semiannual basis. The annual financial statements are
   audited by external CPAs.




                                              6

                            XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 3121-2001B10100091

                                      DCAA PERSONNEL

                                                                       Telephone No.
Primary contacts regarding this audit:
         Teresa Joyce, Auditor                                         (303) 969-5000
         Vicki L. DeLeon, Supervisory Auditor                          (303) 969-5000

Other contact regarding this audit report:
         S.M. Wenger, Branch Manager                                   (303) 969-5000

                                                                          FAX No.
         Denver Branch Office                                          (303) 969-5056

                                                                      E-mail Address
         Denver Branch Office                                     dcaa-fao3121@dcaa.mil

General information on audit matters is available at http://www.dcaa.mil.

                                      RELEVANT DATES

NSF request for audit dated July 20, 2004



AUDIT REPORT AUTHORIZED BY:



                                                           /s/ Vicki L. DeLeon for
                                                           S. M. WENGER
                                                           Branch Manager




                                               7

                              XXXXXXXXXXXXXXXXXXXXX
Page 8 Redacted in its Entirety
Audit Report No. 3121-2001B10100091

                                                APPENDIX




                                      9

                        XXXXXXXXXXXXXXXXXXXXX
            DEFENSE CONTRACT AUDIT AGENCY

            AUDIT REPORT NO. 3121–2002B10100091

                                                               December 16, 2005

PREPARED FOR: National Science Foundation
              Office of Inspector General
              ATTN: Ken Stagner
              999 18th St., Suite 775
              Denver, CO 80202

PREPARED BY:     DCAA Denver Branch Office
                 7112 West Jefferson Ave., Suite 200
                 Lakewood, CO 80235-2327
                     Telephone No.     (303) 969-5000
                     FAX No.           (303) 969-5056
                     E-mail Address    dcaa-fao3121@dcaa.mil

SUBJECT:         VECO Rocky Mountain, Inc. Fiscal Year 2002 Incurred Costs

REFERENCES::     NSF #OPP-0001041
                 Relevant Dates: See Page 7

CONTRACTOR:      VECO Rocky Mountain, Inc.
                 9000 E. Nichols Ave., Suite 250
                 Centennial, CO 80112-3474

REPORT RELEASE RESTRICTIONS: See Page 8

                                                                                   Page
CONTENTS:         Subject of Audit                                                  1
                  Scope of Audit                                                    1
                  Results of Audit                                                  2
                  Contractor Organization and Systems                               6
                  DCAA Personnel and Report Authorization                           7
                  Audit Report Distribution and Restrictions                        8
                  Appendix                                                          9




                        XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 3121-2002B10100091

                                      SUBJECT OF AUDIT

        We examined the VECO Rocky Mountain, Inc. (VRM)’s incurred cost proposal and
related books and records for reimbursement of fiscal year (FY) 2002 incurred costs. The
purpose of the examination was to determine allowability of direct and indirect costs and
recommend contracting officer-determined indirect cost rates for FY 2002. The proposed rates
apply primarily to the flexibly-priced contracts listed in Exhibit A, page 4. A copy of VRM's
Certificate of Final Indirect Costs, dated March 24, 2003, is included as an Appendix to the report
(see page 9).

       The proposal is the responsibility of the contractor. Our responsibility is to express an
opinion based on our examination.

                                       SCOPE OF AUDIT

       Except for the qualification discussed below, we conducted our examination in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the examination to obtain reasonable assurance about whether the data and
records examined are free of material misstatement. An examination includes:

       •    evaluating the contractor's internal controls, assessing control risk, and determining
            the extent of audit testing needed based on the control risk assessment;
       •    examining, on a test basis, evidence supporting the amounts and disclosures in the
            data and records evaluated;
       •    assessing the accounting principles used and significant estimates made by the
            contractor;
       •    evaluating the overall data and records presentation; and
       •    determining the need for technical specialist.

       We evaluated the proposal using the applicable requirements contained in the:

       •    Federal Acquisition Regulation (FAR); and
       •    Cost Accounting Standards.

       We have not specifically examined VRM’s accounting system and related internal
controls for the FY 2002 costs being reviewed. VRM did not provide a job cost ledger for 2002.
We were able to reconcile in total the specific cost elements claimed for the NSF contract to
VRM’s general ledger. We increased testing as a result of this system deficiency

       The contractor is a small business with limited resources to be applied to compliance
procedures and testing. The scope of our examination reflects this assessment of control risk and
includes tests of compliance with applicable laws and regulations that we believe provide a
reasonable basis for our opinion.




                               XXXXXXXXXXXXXXXXXXXXX
 Audit Report No. 3121-2002B10100091

 QUALIFICATION

         Our report is qualified related to claimed direct labor costs of $xxxxxxxxxxx. During our
 audit, we verified the claimed labor hours through the labor distribution to individual employee
 timesheets. However, we found that the employee timesheets were not signed by employees
 certifying the hours recorded or approved by the employee's supervisors. Without the
 employee's certification and supervisor’s approval of the recorded hours, we do not have
 sufficient evidential matter that the hours recorded reflect the actual hours worked. We informed
 VECO of this deficiency in its internal controls.

         VECO has corrected this condition with a written timekeeping policy effective February
 1, 2004, which requires employees and supervisors to sign timesheets to certify the accuracy of
 their labor hours. Nevertheless, for the audit years 2001 through 2003, this internal control did
 not exist and we can not verify through other means the accuracy of the hours reported on the
 timesheet. Therefore, our audit report is qualified related to the claimed labor costs. See Results
 below. See Results below

                                      RESULTS OF AUDIT

        Direct Costs. In our opinion, except for the qualification related to the claimed direct
 labor costs of $ xxxxxxxxxxx, the contractor’s claimed direct costs are acceptable and are
 provisionally approved pending final acceptance. Final acceptance of amounts proposed under
 Government contracts does not take place until performance under the contract is completed and
 accepted by the cognizant authorities and the audit responsibilities have been completed.

        Indirect Rates. In our opinion, except for the qualification related to the claimed direct
 labor costs of $ xxxxxxxxxxx which are in the claimed bases, the contractor's indirect rates are
 acceptable as proposed. The examination results are presented below:

                                                                        Proposed and Accepted
                                                      Allocation      Indirect
Indirect Category                                       Base        Expense Pool          Rate

xxxxxxxxxxx xxxxxxxxxxx xxxxxxxxxxx                      xx        Xxxxxxxxxxx         Xxxxxxxxxxx
xxxxxxxxxxx xxxxxxxxxxx xxxxxxxxxxx                      Xx        Xxxxxxxxxxx         Xxxxxxxxxxx
xxxxxxxxxxx xxxxxxxxxxx xxxxxxxxxxx                      Xx        Xxxxxxxxxxx         xxxxxxxxxxx

              Xx xxxxxxxxxxx xxxxxxxxxxxxxxxxxx xxxxxxxxxxx xxxxxxxxxxx
               Xx xxxxxxxxxxx xxxxxxxxxxxxxxxxxxxx xxxxxxxxxxx
              Xx xxxxxxxxxxx xxxxxxxxxxx xxxxxxxxxxx xxxxxxxxxxx xxxxxxxxxxx




                                                  2

                                    xxxxxxxxxxxxxxxxxxxxxx
Audit Report No. 3121-2002B10100091



              GOVERNMENT PARTICIPATION IN ALLOCATION BASES

                                                        Government FFP
                            Government Flexibly-      Contracts/Subcontracts
                                   Priced                      and
      Indirect Category     Contracts/Subcontract       Commercial Work            Total
                                      s
     XXXXXXXXX                     XXXX                       XXXX                XXXX
     XXXXXXXXX                     XXXX                       XXXX                XXXX
     XXXXXXXXX                     XXXX                       XXXX                XXXX


         Exhibit A, page 4, includes a Schedule of Direct Costs by Contract/Subcontract and
Indirect Expense Applied at Audited Rates. The indirect rates proposed and audited are subject
to final determination of the contracting officer.

       Cumulative Allowable Cost Worksheet (CACWS). The costs noted on the schedule of
cumulative allowable costs in Exhibit B, page 5 represent costs that are considered allowable
under the listed contracts and are, therefore, reimbursable. For those contracts identified as
“Ready to Close,” the information on the CACWS should be used to close out contracts.
Individual contract audit closing statements will only be issued if requested by the ACO.

        We discussed the results of our examination with XXXXXXXXXXXXXXXXXXXXXX
in an exit conference held on December 13, 2005. XXXXXXXX withheld comment.




                                               3

                             XXXXXXXXXXXXXXXXXXXXX
         Audit Report No. 3121-2002B10100091


                                                                                                                                               EXHIBIT A



                                                         VECO ROCKY MOUNTAIN, INC.
                                            SCHEDULE OF DIRECT COSTS BY CONTRACT/SUBCONTRACT
                                               AND INDIRECT EXPENSE APPLIED AT AUDITED RATES
                                                            Fiscal Year Ended 3/31/2002

                      Direct       Direct                                                                                  xxxxxx
                      Labor      Labor RTX                     Other Direct                     Total Direct     xxxxxx    xxxxxx     Xxxxxx    Xxxxxx     Total
  Contract No.       Regular      Contract         Travel         Costs         Subcontracts       Costs         Xxxxxx    Xxxxxx     Xxxxxx    Xxxxxx     Costs
NSF OPP-0001041     $ xxxxxx     Xxxxxx         Xxxxxx         Xxxxxx          xxxxxx xxx       xxxxxx xxx      Xxxxxx    Xxxxxx    Xxxxxx     Xxxxxx    Xxxxxx



            Note:   Proposed and audited indirect rates are subject to final determination of the contracting officer.




                                                                                          4

                                                                        FOR OFFICIAL USE ONLY
         Audit Report No. 3121-2002B10100091

                                                                                                                                                          EXHIBIT B



                                                                     VECO ROCKY MOUNTAIN, INC.
                                                                    Cumulative Allowable Cost Worksheet
                                                                             Through 3/31/2002
                                                           For Cost and Flexibly Priced Contracts and Subcontracts


                                               Prior          Unsettled Claimed Direct and Indirect Costs                        Less           Total           Assist
                            Subject To     Audited Years                 Using Claimed Rates                                    Contract      Allowable        Amounts        Ready
                             Penalty        W/Settled           FYE            FYE               FYE                           Limitation        Cost         Included in       to
        Contract No.        Clause (1)       Rates (2)       3/31/2000      3/31/2001         3/31/2002          Subtotal         (3)            (4)           Total (5)      Close

   Cost Type
   NSF OPP-0001041              Yes               0           XXXXX               XXXXX            XXXXX          XXXXX                           XXXXX            0           No


NOTES:
(1) FAR 42.709 implements 10 U.S.C. 2324 (a)-(d) and 41 U.S.C. 256 (a)-(d), which require that penalties be assessed if a contractor claims an expressly
    unallowable cost in an indirect cost settlement. The FAR 42.709 applies to all cost type and fixed-price-incentive contracts in excess of $500,000 issued on or
    after 1 October 1995. DFARS 231.70 applies to DoD cost-type and fixed -price-incentive-fee contracts in excess of $100,000 issued between 26 February 1987
    and 1 October 1995.
(2) These costs, by contract, are computed using the negotiation or rate agreement document.
(3) Contract limitation include costs incurred that are (i) in excess of contract ceiling rates, (ii) unallowable per contract, (iii) outside the period of performance,
    or (iv) in excess of contract ceiling amounts that are not already excluded.
(4) The cumulative allowable amounts in this column are not to exceed contract-ceiling amounts and are subject to the resolution of subcontract assist audits identified in
     Column 5.
(5) Costs in this column are considered unresolved pending subcontract completion and receipt of final cumulative allowable subcontract costs. See the attached supporting
     schedule for details of subcontracts included in this amount.




                                                                                        5

                                                                  XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 3121-2002B10100091

                   CONTRACTOR ORGANIZATION AND SYSTEMS

1. Organization:

   VECO Corporation was founded in 1968. On April 1, 2003, two of its subsidiaries, VECO
   Rocky Mountain, Inc. and VECO Pacific, Inc. merged to become VECO USA, Inc. VECO
   USA is an Engineering, Procurement, Construction, Operations and Maintenance and
   Management Services concern with sales for fiscal year ended 2002 of XXXXXX. The 2002
   sales to the government were XXXXXXX.

   VECO USA teaming with Polar Field Services and SRI International collectively known as
   VECO Polar Resources, have been working together since 1999 to provide Arctic logistics
   research support services.

2. Accounting System:

   We have not audited the Dynamics accounting system used by VRM during FY 2002.
   VRM’s accounting system was converted to TrueLine in mid-FY 2002, and we have not
   audited that system for the period of this examination.

   VECO USA's accounting period is from April 1 to March 31. VECO Corporation and
   Subsidiaries’ financial statements are prepared on a semiannual basis. The annual financial
   statements are audited by external CPAs.




                                               6

                            XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 3121-2002B10100091

                                      DCAA PERSONNEL

                                                                       Telephone No.
Primary contacts regarding this audit:
         Xxxxxxxxxxxxxxxxxxxxx                                  xxxxxxxxxxxxxxxxxxxxxx
         Xxxxxxxxxxxxxxxxxxxxxx                                 Xxxxxxxxxxxxxxxxxxxxxx

Other contact regarding this audit report:
         S.M. Wenger, Branch Manager                                   (303) 969-5000

                                                                          FAX No.
         Denver Branch Office                                          (303) 969-5056

                                                                      E-mail Address
         Denver Branch Office                                     dcaa-fao3121@dcaa.mil

General information on audit matters is available at http://www.dcaa.mil.

                                      RELEVANT DATES

NSF request for audit dated July 20, 2004


AUDIT REPORT AUTHORIZED BY:



                                                           /s/ Vicki L. DeLeon for
                                                           S.M. WENGER
                                                           Branch Manager




                                               7

                                   xxxxxxxxxxxxxxxxxxxxxx
Page 8 Redacted in its Entirety
Audit Report No. 3121-2002B10100091

                                                APPENDIX




                                      9

                        XXXXXXXXXXXXXXXXXXXXX
             DEFENSE CONTRACT AUDIT AGENCY

            AUDIT REPORT NO. 3121-2003B10100091

                                                               January 13, 2006
PREPARED FOR: National Science Foundation
              Office of Inspector General
              ATTN: Ken Stagner
              999 18th St., Suite 775
              Denver, CO 80202

PREPARED BY:     DCAA Denver Branch Office
                 7112 West Jefferson Ave., Suite 200
                 Lakewood, CO 80235-2327
                     Telephone No.     (303) 969-5000
                     FAX No.           (303) 969-5056
                     E-mail Address    dcaa-fao3121@dcaa.mil

SUBJECT:         Report on 2003 Final Incurred Costs

REFERENCES::     NSF #OPP-0001041
                 Relevant Dates: See Page 11

CONTRACTOR:      VECO Rocky Mountain, Inc.
                 9000 E. Nichols Ave., Suite 250
                 Centennial, CO 80112-3474

REPORT RELEASE RESTRICTIONS: See Page 12

                                                                                  Page
CONTENTS:         Subject of Audit                                                  1
                  Scope of Audit                                                    1
                  Results of Audit                                                  2
                  Contractor Organization and Systems                              10
                  DCAA Personnel and Report Authorization                          11
                  Audit Report Distribution and Restrictions                       12
                  Appendix                                                         13




                        XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 3121-2003B10100091



                                      SUBJECT OF AUDIT

        We examined the VECO Rocky Mountain, Inc. (VRM)’s incurred cost proposal and
related books and records for reimbursement of fiscal year (FY) 2003 incurred costs. The
purpose of the examination was to determine allowability of direct and indirect costs and
recommend contracting officer-determined indirect cost rates for FY 2003. The proposed rates
apply primarily to the flexibly-priced contracts listed in Exhibit B, page 8. A copy of VRM's
Certificate of Final Indirect Costs, dated June 7, 2005, is included as an Appendix to the report
(see page 13).

       The proposal is the responsibility of the contractor. Our responsibility is to express an
opinion based on our examination.

                                       SCOPE OF AUDIT

       Except for the qualification discussed below, we conducted our examination in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the examination to obtain reasonable assurance about whether the data and
records examined are free of material misstatement. An examination includes:

       •    evaluating the contractor's internal controls, assessing control risk, and determining
            the extent of audit testing needed based on the control risk assessment;
       •    examining, on a test basis, evidence supporting the amounts and disclosures in the
            data and records evaluated;
       •    assessing the accounting principles used and significant estimates made by the
            contractor;
       •    evaluating the overall data and records presentation; and
       •    determining the need for technical specialist.

       We evaluated the proposal using the applicable requirements contained in the:

       •    Federal Acquisition Regulation (FAR); and
       •    Cost Accounting Standards.

        We have not specifically examined VRM’s accounting system and related internal
controls for the FY 2003 costs being reviewed. The contractor is a small business with limited
resources to be applied to compliance procedures and testing. The scope of our examination
reflects this assessment of control risk and includes test of compliance with applicable laws and
regulations that we believe provide a reasonable basis for our opinion.




                               XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 3121-2003B10100091

QUALIFICATION

        Our report is qualified related to the claimed direct and indirect labor costs. During our
audit, we verified the claimed labor hours through the labor distribution to individual employee
timesheets. However, we found that the employee timesheets were not signed by employees
certifying the hours recorded or approved by the employee's supervisors. Without the
employee's certification and supervisor’s approval of the recorded hours, we do not have
sufficient evidential matter that the hours recorded reflect the actual hours worked. We informed
VRM of this deficiency in its internal controls. VRM has corrected this condition with a written
timekeeping policy effective February 1, 2004, which requires employees and supervisors to sign
timesheets to certify the accuracy of the recorded labor hours. Nevertheless, for the audit year
2003, this internal control did not exist and we can not verify through other means the accuracy
of the hours reported on the timesheet. Therefore, our audit report is qualified related to the
claimed labor costs. See Exhibit A, Note 1.

                                     RESULTS OF AUDIT

       Direct Costs. In our opinion, except for the qualification related to the claimed direct
labor costs of xxxxxxxxxx the contractor’s claimed direct costs are acceptable and are
provisionally approved, pending final acceptance. Final acceptance of amounts proposed under
Government contracts does not take place until performance under the contract is completed and
accepted by the cognizant authorities and the audit responsibilities have been completed.

       Indirect Rates. In our opinion, except for the qualification related to the claimed direct
and indirect labor which are in the claimed allocation bases and overhead and G&A pools, the
contractor’s proposed indirect rates are acceptable, as adjusted, by our examination.

       The examination found expressly unallowable costs subject to penalty in the G&A pool
of xxxxxxxxxx. Of that amount, xxxxxx was allocable to contracts specified in FAR 42.709(b).
This amount is recommended for penalty, but is less than the $10,000 waiver threshold discussed
in FAR 42.709-5.

       The examination results and recommendations follow:




                                                 2

                                 FOR OFFICIAL USE ONLY
Audit Report No. 3121-2003B10100091
                                                                                     Exhibit A


                            Allocation
       Cost Category          Base        Claimed      Questioned      Difference    Reference

          G&A                  (a)
Pool                                      XXXXXX         XXXXXX         XXXXXX        Exhibit A
Base                                      XXXXXX
Rate                                      XXXXXX         XXXXXX         XXXXXX        Exhibit A

  Engineering OH –
     Home Office               (b)
Pool                                      XXXXXX
Base                                      XXXXXX
Rate                                      XXXXXX

  Engineering OH –
 RTX Contract Labor            (c)
Pool                                      XXXXXX
Base                                      XXXXXX
Rate                                      XXXXXX

             XX              XZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZ
             XX             XZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZ
             XX              XZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZZ



               GOVERNMENT PARTICIPATION IN ALLOCATION BASES
                                                       Government FFP
                             Government Flexibly-    Contracts/Subcontracts
                                    Priced                    and
                             Contracts/Subcontract
        Indirect Category              s               Commercial Work           Total
        XXXXX                      XXXXX                  XXXXX                 XXXXX
        XXXXX                      XXXXX                  XXXXX                 XXXXX
        XXXXX                      XXXXX                  XXXXX                 XXXXX

        Exhibit B, page 8, includes a Schedule of Direct Costs by Contract/Subcontract and
Indirect Expense Applied at Audit Adjusted Rates. The indirect rates proposed and audited are
subject to final determination of the contracting officer.

      Cumulative Allowable Cost Worksheet (CACWS). The costs noted on the schedule of
cumulative allowable costs in Exhibit C, page 9 represent costs that are considered allowable

                                               3

                               XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 3121-2003B10100091
                                                                                         Exhibit A
under the listed contracts and are, therefore, reimbursable. For those contracts identified as
“Ready to Close,” the information on the CACWS should be used to close out contracts.
Individual contract audit closing statements will only be issued if requested by the PCO.

        We discussed the results of our examination with XXXXXXXXXXXXXXXXXXXXX,
in an exit conference held on December 13, 2005. XXXXXXXXXXX withheld comment.




                                                 4

                              XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 3121-2003B10100091
                                                                                            Exhibit A


                           VECO ROCKY MOUNTAIN
               STATEMENT OF CONTRACTOR'S PROPOSED INDIRECT
                   SUPPORT G&A RATE AND RESULTS OF AUDIT

                                                                            Non       Not
             Cost Element                   Proposed      Questioned      Concurred     e
             Labor                        $xxxxxxxx                                   1
             B&P Overhead Allocation         xxxxxxxx
             Fringe Benefits                  xxxxxxxx
             Misc. G&A Costs                   xxxxxxx
             Employee Morale                  xxxxxxxx    $ xxxxxxx      xxxxxxxx      2
             Total                        $ xxxxxxxx      $ xxxxxxxx      xxxxxxxx

             Allocation Base (Direct Labor)
             Proposed/Accepted           $ xxxxxxxx

             Indirect Support G&A Rate:
             Xxxxxx xxxxxx                     Xxxxxx
             Xxxxxx xxxxxx                     Xxxxxx                                  2
             xxxxxx xxxxxx                     Xxxxxx



Explanatory Notes

1.     Labor Costs

            The results of our audit are qualified related to the claimed direct and indirect labor
costs. During our audit, we verified the claimed labor hours through the labor distribution to
individual employee timesheets. However, we found that the employee timesheets were not
signed by employees certifying the hours recorded or approved by the employee's supervisors.
Without the employee's certification and supervisor’s approval of the recorded hours, we do not
have sufficient evidential matter that the hours recorded reflect the actual hours worked. We
informed VRM of this deficiency in its internal controls. VRM has corrected this condition with
a written timekeeping policy effective February 1, 2004, which requires employees and
supervisors to sign timesheets to certify the accuracy of the recorded labor hours. Nevertheless,
for the audit year 2003, this internal control did not exist and we can not verify through other
means the accuracy of the hours reported on the timesheet. Therefore, our audit report is
qualified related to the claimed labor costs.




                                                      5

                              X     xxxx X      xxxx X     xxxx X      xxxx
Audit Report No. 3121-2003B10100091
                                                                                       Exhibit A
2.      Employee Bonuses

        a.     Summary of Conclusions:

              In accordance with FAR 31.205-6, Bonus and Incentive Compensation, we
questioned xxxxxx in expressly unallowable costs for accrued bonuses that were awarded in FY
2003. VRM does not have an established plan or prior written agreements with the employees
who received bonuses. Nor does VRM have a formal, written policy for bonuses. Per FAR Part
31.205-6, Bonus and Incentive Compensation states the following:

     “Bonuses and incentive compensation are allowable provided the awards are paid or
     accrued under an agreement entered into in good faith between the contractor and the
     employees before the services are rendered or pursuant to an established plan or policy
     followed by the contractor so consistently as to imply, in effect, an agreement to make
     such payment; and, bases for the award is supported.”


        b.     Basis of Contractor’s Cost:

                      The claimed amount was based on the contractor’s FY 2003 indirect rate
submission, general ledger, and discussions with contractor personnel. Claimed Account 911,
Employee Morale costs were reduced by 14% based on a statistical sampling performed by
VRM.

        c.     Audit Evaluation:

               We reviewed the transactions in Account 911 and requested support for the one
high dollar entry of xxxxxx. The contractor identified this as a bonus accrual, and provided the
payroll documents to demonstrate the bonuses paid to three employees. VRM could not provide
a written policy or agreements with any of these employees. We question the claimed costs of $
xxxxxx since VRM does not have documented agreements with employees for payment of
bonuses in accordance with FAR 31.205-6. The questioned costs were reduced by 14 percent
since VRM already withheld this amount based on its statistical sampling projection.

        d.     Contractor’s Reaction:

             VRM stated it has a standard practice of paying bonuses based on the company’s
performance. Therefore, it considers these costs allowable.




        e.     Auditor’s Response:
                                                6

                             X     xxxx X    xxxx X   xxxx X    xxxx
Audit Report No. 3121-2003B10100091
                                                                                   Exhibit A

                We have not revised our audit opinion. During our audit, we requested VRM to
provide its documented policies regarding the payment of bonuses. VRM did not provide any
documentation. Further, our review of VRM’s 2001 and 2002 incurred costs found that bonuses
were not paid to employees. Therefore, VRM’s past practices do not support that payment of
bonuses is a standard practice.




                                              7

                           X    xxxx X    xxxx X   xxxx X    xxxx
           Audit Report No. 3121-2003B10100091
                                                                                                                                                               Exhibit B


                                                   SCHEDULE OF DIRECT COSTS BY CONTRACT/SUBCONTRACT
                                                      AND INDIRECT EXPENSE APPLIED AT AUDITED RATES
                                                                   Fiscal Year Ended 3/31/2003

                                                                        Other
                    Direct Labor    Direct Labor                        Direct                    Total Direct     Xxxxxx           Xxxxxx           Xxxxxx     Xxxxxx         Total
                                                                                  Subcontract
  Contract No.        Regular           Contract         Travel         Costs         s               Costs      X       xxxx       X     xxxx   X      xxxx   X   xxx         Costs

NSF OPP-0001041      Xxxxx      x   X      xxxx      X     xxxx     X      xxx    X     xxxx      X     xxxx     X       xxxx   X       xxxx     X     xxxx    X   xxx     X     xxxx




            Note:   Proposed and audited indirect rates are subject to final determination of the contracting officer.




                                                                                             8

                                                                          xxxxxxxxxxxxxxxxxxxxxxxxxxx
           Audit Report No. 3121-2003B10100091
                                                                                                                                                               Exhibit C

                                                                       VECO ROCKY MOUNTAIN, INC.
                                                                      Cumulative Allowable Cost Worksheet
                                                                               Through 3/31/2003
                                                             For Cost and Flexibly Priced Contracts and Subcontracts


                                           Prior                                                                                       Less          Total          Assist
                         Subject to    Audited Years     Unsettled Direct and Indirect Costs Using Audited Rates                      Contract     Allowable       Amounts      Ready
                          Penalty       W/Settled         FYE            FYE             FYE            FYE                          Limitation       Cost        Included in     to
      Contract No.       Clause (1)      Rates (2)      3/31/2000      3/31/2001      3/31/2002       3/31/2003        Subtotal         (3)            (4)         Total (5)    Close

   Cost Type
   NSF OPP-
   0001041                   Yes             0           XXXX           XXXX            XXXX            XXXX            XXXX                       $22,200,308         0         No


NOTES:
(1) FAR 42.709 implements 10 U.S.C. 2324 (a)-(d) and 41 U.S.C. 256 (a)-(d), which require that penalties be assessed if a contractor claims an expressly
    unallowable cost in an indirect cost settlement. The FAR 42.709 applies to all cost type and fixed-price-incentive contracts in excess of $500,000 issued on or
    after 1 October 1995. DFARS 231.70 applies to DoD cost-type and fixed -price-incentive-fee contracts in excess of $100,000 issued between 26 February 1987
    and 1 October 1995.
(2) These costs, by contract, are computed using the negotiation or rate agreement document.
(3) Contract limitation include costs incurred that are (i) in excess of contract ceiling rates, (ii) unallowable per contract, (iii) outside the period of performance,
    or (iv) in excess of contract ceiling amounts that are not already excluded.
(4) The cumulative allowable amounts in this column are not to exceed contract-ceiling amounts and are subject to the resolution of subcontract assist audits identified in
     Column 5.
(5) Costs in this column are considered unresolved pending subcontract completion and receipt of final cumulative allowable subcontract costs. See the attached supporting
     schedule for details of subcontracts included in this amount.




                                                                                          9

                                                                     XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 3121-2003B10100091

                   CONTRACTOR ORGANIZATION AND SYSTEMS

1. Organization:

   VECO Corporation, a closely held corporation, was incorporated in the state of Delaware in
   1979. VECO Rocky Mountain is wholly owned subsidiary of VECO Corporation. VRM is
   an Engineering, Procurement, Construction, Operations and Maintenance and Management
   Services concern with sales for fiscal year ended 2003 of XXXXXX. The 2003 sales to the
   government were XXXX. VRM has 134 direct employees and 20 indirect.

   VRM, teaming with Polar Field Services and SRI International, collectively known as VECO
   Polar Resources, have been working together since 1999 to provide Arctic logistics research
   support services.

2. Accounting System:

   VRM used their TrueLine accounting system exclusively during FY 2003. We have not
   specifically examined this accounting system and related internal controls for the FY 2003
   costs being reviewed.

   VRM's accounting period is from April 1 to March 31. VECO Corporation and its
   Subsidiaries’ financial statements are prepared on a semiannual basis. The annual financial
   statements are audited by external CPAs.




                                              10

                            XXXXXXXXXXXXXXXXXXXXX
Audit Report No. 3121-2003B10100091


                                      DCAA PERSONNEL

                                                                       Telephone No.
Primary contacts regarding this audit:
         Xxxxxxxxxxxxxxxxxxxxxx                                 Xxxxxxxxxxxxxxxxxxxxxx
         xxxxxxxxxxxxxxxxxxxxxx                                 Xxxxxxxxxxxxxxxxxxxxxx

Other contact regarding this audit report:
         S.M. Wenger, Branch Manager                                   (303) 969-5000

                                                                          FAX No.
         Denver Branch Office                                          (303) 969-5056

                                                                      E-mail Address
         Denver Branch Office                                     dcaa-fao3121@dcaa.mil

General information on audit matters is available at http://www.dcaa.mil.

                                      RELEVANT DATES

NSF request for audit dated July 20, 2004


AUDIT REPORT AUTHORIZED BY:



                                                           /s/ Vicki L. DeLeon for
                                                           S. M. WENGER
                                                           Branch Manager




                                                11

                             X     xxxx X    xxxx X   xxxx X   xxxx
Page12 Redacted in its Entirety
Audit Report No. 3121-2003B10100091

                                                APPENDIX




                                      13

                        XXXXXXXXXXXXXXXXXXXXX
